<html>
<title> - EFFECT OF INDUSTRIAL CONTAMINATION ON SMALL BUSINESSES AND SURROUNDING COMMUNITIES - POTENTIAL SOLUTIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





               THE EFFECT OF INDUSTRIAL CONTAMINATION ON
                    SMALL BUSINESSES AND SURROUNDING
                   COMMUNITIES - POTENTIAL SOLUTIONS

=======================================================================

                           HEARING BEFORE THE

            SUBCOMMITTEE ON RURAL AND URBAN ENTREPRENEURSHIP

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                            DECEMBER 8, 2008

                               __________

                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 110-118
Available via the GPO Website: http://www.access.gpo.gov/congress/house




                   U.S. GOVERNMENT PRINTING OFFICE
45-609 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001







                   HOUSE COMMITTEE ON SMALL BUSINESS

                NYDIA M. VELAZQUEZ, New York, Chairwoman


HEATH SHULER, North Carolina         STEVE CHABOT, Ohio, Ranking Member
CHARLES GONZALEZ, Texas              ROSCOE BARTLETT, Maryland
RICK LARSEN, Washington              SAM GRAVES, Missouri
RAUL GRIJALVA, Arizona               TODD AKIN, Missouri
MICHAEL MICHAUD, Maine               BILL SHUSTER, Pennsylvania
MELISSA BEAN, Illinois               MARILYN MUSGRAVE, Colorado
HENRY CUELLAR, Texas                 STEVE KING, Iowa
DAN LIPINSKI, Illinois               JEFF FORTENBERRY, Nebraska
GWEN MOORE, Wisconsin                LYNN WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          LOUIE GOHMERT, Texas
BRUCE BRALEY, Iowa                   DAVID DAVIS, Tennessee
YVETTE CLARKE, New York              MARY FALLIN, Oklahoma
BRAD ELLSWORTH, Indiana              VERN BUCHANAN, Florida
HANK JOHNSON, Georgia
JOE SESTAK, Pennsylvania
BRIAN HIGGINS, New York
MAZIE HIRONO, Hawaii

                  Michael Day, Majority Staff Director
                 Adam Minehardt, Deputy Staff Director
                      Tim Slattery, Chief Counsel
               Kevin Fitzpatrick, Minority Staff Director

                                 ______

             SUBCOMMITEE ON RURAL AND URBAN ENTREPRENEURSHIP

                 HEATH SHULER, North Carolina, Chairman


RICK LARSEN, Washington              JEFF FORTENBERRY, Nebraska, 
MICHAEL MICHAUD, Maine               Ranking
GWEN MOORE, Wisconsin                ROSCOE BARTLETT, Maryland
YVETTE CLARKE, New York              MARILYN MUSGRAVE, Colorado
BRAD ELLSWORTH, Indiana              DAVID DAVIS, Tennessee
HANK JOHNSON, Georgia

                                  (ii)



















                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page

Shuler, Hon. Heath...............................................     1

                               WITNESSES

Hill, Mr. Franklin Director, Superfund Division, United States 
  Environmental Protection Agency, Region 4, Atlanta, Georgia....     2
 Matthews, Mr. Dexter Director, Division Of Waste Management, 
  North Carolina Department Of Environment And Natural Resources.     5
Hanks, Mr. Neal , President, Beverly-Hanks & Associates, 
  Realtors, Asheville, North Carolina............................     7
Macqueen, Mr. Peter ``Tate'', Member, Cts Community Monitoring 
  Council........................................................     8

                                APPENDIX


Prepared Statements:
Shuler, Hon. Heath...............................................    23
Hill, Mr. Franklin Director, Superfund Division, United States 
  Environmental Protection Agency, Region 4, Atlanta, Georgia....    25
 Matthews, Mr. Dexter Director, Division Of Waste Management, 
  North Carolina Department Of Environment And Natural Resources.    29
Hanks, Mr. Neal , President, Beverly-Hanks & Associates, 
  Realtors, Asheville, North Carolina............................    32
Macqueen, Mr. Peter ``Tate'', Member, Cts Community Monitoring 
  Council........................................................    36

                                 (iii)



 
                   EFFECT OF INDUSTRIAL CONTAMINATION
                  ON SMALL BUSINESSES AND SURROUNDING
                   COMMUNITIES - POTENTIAL SOLUTIONS

                              ----------                              


                        Monday, December 8, 2008

                     U.S. House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., at 
the Skyland Fire Department, 9 Miller Road, Asheville, North 
Carolina, Hon. Heath Shuler [Chairman of the Subcommittee], 
presiding.
    Present: Representative Shuler.
    Chairman Shuler. The hearing will be called to order.
    Before we get started, there are a couple of folks I would 
like to introduce, and certainly someone who has done an 
outstanding job and worked on this project on the state level, 
and that is Representative Charles Thomas.
    [Applause.]
    Chairman Shuler. Charles (Representative Thomas) has done a 
great job helping the community and being very active and 
involved.
    Also, Jonathan Mitchell with Senator Burr's office.
    [Applause.]
    Chairman Shuler. The Senator and I have been working 
together on this issue and others and I commend him for his 
hard work and Jonathan's outstanding job in the District. I get 
to see him quite frequently and we all appreciate their 
efforts.
    Today's hearing of the Subcommittee on Rural and Urban 
Entrepreneurship will examine how the contaminated CTS site in 
the Skyland area has affected the community. We are going to 
discuss both what has been done in the past to clean up the 
site, as well as steps that can be taken in the future.
    For most of the 20th Century, lax environmental standards 
brought short-term benefits to communities through jobs and 
industrial development. But when factories closed and jobs 
moved on, the long-term damage remained.
    The economy of the Asheville area, especially its small 
businesses, is dependent on the conditions of the surrounding 
environment. The Asheville Chamber of Commerce cites the 
quality of life that Asheville enjoys as one of the greatest 
reasons for individuals and businesses to relocate. National 
magazines have ranked Asheville as one of the top places to 
raise a family, live a healthy life, and start a business. For 
all these reasons, it is vital that a strong emphasis is placed 
on maintaining the environmental quality of the area.
    I want to take a brief moment to commend residents of the 
area surrounding the former CTS site. They have taken the 
initiative to investigate a situation that threatens the health 
and the livelihood of families in their community, and they 
have persistently taken their concerns to government officials. 
For those members of the community who are here today, I extend 
a special welcome. I appreciate your determination, and I am 
grateful to have the opportunity to join you in your efforts to 
clean up this site. I am determined to do whatever it takes in 
my power to help these families get the truth about the 
environmental conditions of their community. I am also 
determined to ensure that damage is contained, hazards are 
eliminated, and long-term health effects are addressed.
    I also wish to welcome all of our witnesses, including 
representatives from the United States Environmental Protection 
Agency and the North Carolina Department of Environment and 
Natural Resources. These agencies are charged with overseeing 
the effects of the cleanup of this site and preventing harmful 
exposures. I thank them for their work to date on the CTS site 
as well as joining us here today.
    Because of budget constraints and we know all about budget 
constraints at this point--and the large number of hazardous 
waste sites in America, these agencies are unable to address 
all sites simultaneously. Systems for prioritizing sites have 
been created to allow these agencies to work on those requiring 
immediate attention first. I look forward to hearing more about 
these systems, how they affect the cleanup process for a site, 
and how a site that is not listed as a top priority can still 
be decontaminated.
    I would also like to thank the Skyland Fire Department for 
allowing us to use this space.
    Our first witness, Franklin Hill, the Director of the 
Superfund Division of the United States Environmental 
Protection Agency in Region 4. Mr. Hill, you have five minutes 
to give your opening testimony. And I appreciate you and all of 
our guests for being here today.

STATEMENT OF FRANKLIN HILL DIRECTOR, SUPERFUND DIVISION, UNITED 
  STATES ENVIRONMENTAL PROTECTION AGENCY, REGION 4, ATLANTA, 
                            GEORGIA

    Mr. Hill. Thank you, Congressman Shuler and also to the 
citizens of the Skyland Road community, and Buncombe County. I 
agree with you Congressman I think they have done an 
outstanding job of bringing awareness to this community 
regarding the activities associated with the CTS site.
    I am the Division Director of the U.S. Environmental 
Protection Agency's Region 4 office in Atlanta. The Superfund 
Division oversees the implementation of the Superfund program 
in eight states in the southeast.
    I want to thank you for this opportunity to discuss the 
effects of contamination on small business and the surrounding 
community. I also want to emphasize that EPA and the State of 
North Carolina have worked extremely hard and very closely on 
the activities that have been conducted to date at the CTS 
site.
    EPA has employed two Superfund authorities at CTS, which I 
have been told by my staff is at the heart of the discussions--
the emergency removal authority, as well as the remedial 
authority. Those are two distinct authorities. Removal has the 
responsibility for short-term cleanup, mainly stabilization of 
imminent and substantial hazards; and the remedial authority 
addresses long-term cleanup, investigation, much longer 
groundwater investigation and remedial action activities.
    After operations at the plant ceased in 1985--and I am 
going to go through a chronology here, just to bring the 
picture of the site up to date, the preliminary assessment was 
conducted at this site, which is the first phase of the site 
assessment and remedial process.
    From that investigation, which is also at the heart of 
discussions in this community, there was a ``no further 
action'' designation given to the site following that 
preliminary investigation, which is mainly just a review of 
operational records of the site and any releases at the site at 
the time. So that recommendation was no further action after 
the preliminary assessment.
    In 1989, EPA conducted a re-evaluation of a number of sites 
in North Carolina, including the CTS site. The re-evaluation 
recommended an investigation with sampling, which was completed 
in 1991. This investigation did not identify residential wells, 
springs, use of potable water. Therefore, there was another 
``no further action'' designation. Again, two ``no further 
action'' designations in this community after two phases of the 
early investigations of this site.
    In the summer of 1999, following a citizen's complaint, the 
North Carolina DENR confirmed that the spring and one 
residential well near the site were contaminated and contacted 
EPA. EPA's removal program provided bottled water to the 
affected residents and funded the connection of those 
residences to public water. EPA performed a more extensive 
investigation of the CTS property, and discovered that soils 
beneath the building were contaminated with trichloroethylene.
    Based on these findings, EPA negotiated an Administrative 
Order with the CTS Corporation and Mills Gap Road Associates, 
as responsible parties, using our removal authority. The AOC 
requires the CTS and Mills Gap Road Associates group to clean 
up soils in the unsaturated zone, to test residential wells 
most likely to be impacted by contamination and to evaluate 
technologies that can mitigate surface water contamination at 
the springs located on the Rice property adjacent to the site.
    In 2006, CTS completed installation of a Soil Vapor 
Extraction System to remove contaminants from the unsaturated 
zone. That system has removed to date over 3900 pounds of 
contaminants. So we feel like that system has been successful.
    What can EPA continue to do? We continue to require the 
respondents to perform additional work under the AOC that's 
consistent with our removal authority. And some of those 
negotiations are underway at this point. There is an ozination 
study proposed at this point that will continue to address 
contaminants in the surface water bodies.
    Because of the continued concerns of the citizens living 
near the site, EPA and North Carolina DENR, the Buncombe County 
Health Center personnel conducted drinking water well sampling 
in November of 2007 at 63 residences. There has been a 
comprehensive well survey in this neighborhood, which includes 
two rounds of sampling, 63 residential wells the first time in 
2007; and in 2008 there was a follow-up sampling of 72 
additional wells. There have been hookups as a result of those 
well surveys and the analytical results that have been 
delivered to us.
    And I want to thank especially the Buncombe County 
officials, who have really stepped up and taken an aggressive 
role to protect the citizens of Buncombe County.
    Again, as I said, in 2008, those private wells have been 
sampled. That data has been provided to the citizens of 
Buncombe County, and additional hookups have been made as a 
result of Buncombe County officers' efforts to bring public 
water to that community.
    EPA continues to evaluate the CTS site's eligibility for 
the National Priorities List. I know this is again another 
issue in this neighborhood--why is this site not on the NPL. As 
you said in your opening remarks, how can we address this site 
off the NPL. Hopefully I can provide some clarity on that issue 
during the question and answer period.
    For the record, the NPL serves as a primary informational 
tool, identifying for states and the public those sites that 
are the worse sites in the country, not necessarily 
guaranteeing that there is a cleanup and not necessarily 
guaranteeing liability of the responsible party. But again, as 
a list of sites that will receive funding if they rise to that 
level of remedial action. CERCLA does not require EPA to list 
all sites that qualify on the NPL, given the agency's broad 
discretion, consideration of other factors such as other 
federal authorities and the states' willingness to undertake 
site remediation.
    In closing, I would like to say that EPA remains committed 
to keeping you and the community informed as we move forward as 
a part of our continued outreach. EPA and North Carolina DENR 
representatives recently met with your staff and other 
Congressional staff to discuss our site remediation efforts as 
well as current and planned future activities for this site. At 
that meeting, EPA and the North Carolina DENR agreed to keep 
the Congressional offices and other elected officials informed 
about the ongoing activities at the CTS site through monthly 
updates that may be distributed to your constituents and 
community.
    I want to thank you for this opportunity, as I said 
earlier, to provide some clarity to what is going on currently 
and what is planned in the future for the CTS characterization 
effort and cleanup. So thank you.
    Chairman Shuler. Thank you, Mr. Hill.
    [The statement of Mr. Hill is included in the appendix at 
25.]
    Our next witness is Dexter Matthews, Director of the 
Division of Waste Management in the North Carolina Department 
of Environment and Natural Resources.
    Mr. Matthews, thank you for being here. You have five 
minutes for your testimony.

   STATEMENT OF DEXTER MATTHEWS, DIRECTOR, DIVISION OF WASTE 
   MANAGEMENT, NORTH CAROLINA DEPARTMENT OF ENVIRONMENT AND 
                       NATURAL RESOURCES

    Mr. Matthews. Thank you, Mr. Chairman. My name is Dexter 
Matthews. I am Director of the Division of Waste Management, 
North Carolina Department of Environment and Natural Resources. 
The division houses environmental regulatory programs for solid 
waste, hazardous waste, underground storage tanks, Superfund 
(both state and federal activities for contaminated site 
cleanup) and brownfields redevelopment.
    I would like to begin by saying that a number of federal, 
state and local agencies have been working on the CTS site in 
Asheville, North Carolina where trichloroethylene is the 
primary contaminant of concern. Although each agency has its 
own regulatory authority and limits, all have been working 
together in a cooperative and supportive manner. The state has 
conducted several sampling events of private wells with the 
U.S. Environmental Protection Agency and Buncombe County and 
also conducted surface water and soil testing at the CTS site 
and in an area within one mile of the facility. A safe drinking 
water source has been ensured for the public surrounding the 
CTS site. EPA's Emergency Response and Removal Branch has 
provided bottled water as needed and the county has done an 
excellent job of extending water lines in response to needs in 
the area.
    The EPA has been directing the handling of immediate 
exposure issues from the CTS of Asheville site. CTS Corporation 
has an agreement with the EPA to conduct certain removal action 
work. Removal actions are limited in scope. These activities 
are not a complete cleanup, but consist of abatement of 
immediate elevated exposure. In addition, the EPA, with the 
support from the North Carolina Superfund Section of the 
Division of Waste Management, has been evaluating the site for 
full cleanup under the Federal Comprehensive Environmental 
Response, Compensation and Liability Act authority, by listing 
the site on the National Priorities List. At this time, 
however, it is questionable whether the CTS site will rank high 
enough to qualify for NPL status. For this reason and in 
response to concerns by residents in the area, the state has 
focused on engaging CTS Corporation in a complete assessment 
and cleanup of the remainder of the site under state authority.
    The state solicited CTS's cooperation in November 2007 in 
conducting an assessment to define the extent of contamination. 
The purpose of this study is to determine where the various 
liquid and solid source materials exist and the resulting 
groundwater contamination has migrated and to assess all other 
contaminated media at the site. Determining contaminant 
migration in groundwater will require an evaluation of the 
geology and fracture systems at the site and in the surrounding 
area through subsurface data collection. The first phase of 
this assessment takes place at the plant, close to the areas of 
chemical spillage and disposal, and proceeds outward from 
there. The first phase is presently underway and several phases 
of work are likely. Planning, sample collection and analysis 
and reporting for this type of work most often takes at least 
five or six months, at a minimum, to complete for each work 
phase. The complete assessment of the site necessary for an 
efficient cleanup, therefore, may take approximately a year and 
a half or longer to complete.
    CTS has indicated it is willing to enter into an agreement 
with the state to conduct the remaining full assessment and 
cleanup. While an agreement is not yet in place, the assessment 
work has commenced.
    The state's remediation authority for addressing sites 
contaminated with hazardous substances include the North 
Carolina Inactive Harardous Sites Response Act and North 
Carolina water quality standards. At priority sites, the state 
first solicits the responsible party's cooperation in 
conducting an assessment of the contamination. Once the nature 
and extent have been defined, a remedy can be developed. The 
state then solicits the responsible party's cooperation in 
conducting the remedial action of the contamination. The state 
will require an executed agreement prior to development of the 
cleanup plan.
    The cleanup plan will undergo public comment. A public 
information meeting was held prior to the implementation of the 
first phase of assessment of the CTS site. Another public 
meeting will be conducted to receive public comment on the 
cleanup plan at the time it is developed.
    If a responsible party does not agree to conduct an 
assessment or cleanup at a site determined to be a priority, 
the state may issue an administrative order, seek an injunction 
to compel compliance with the order and issue administrative 
penalties. Penalties for violating state standards governing 
groundwater contamination and cleanup are up to $10,000 per day 
per violation and up to $25,000 per violation per day for 
subsequent penalties issued within five years.
    The Inactive Hazardous Sites Response Act has a provision 
whereby a responsible party is not obliged to spend 
individually more than $3 million on remedial action conducted 
voluntarily for a site under an agreement with the state. We 
will not know the cost of site cleanup until the assessment is 
completed and a remedial plan action is submitted.
    Though CTS operated an electroplating plant at the site for 
about 27 years and is the primary responsible party, it may not 
be the only responsible party for this site. Prior to CTS' 
operation, International Resistance Company operated an 
electroplating business for about seven years. In addition, 
Mills Gap Associates may have some responsibilities as an owner 
with knowledge of the contamination when the property was 
purchased. If actions by CTS do not complete the necessary 
remedial action work, the state can evaluate those other 
potentially responsible parties and others it identifies in 
addressing the remainder of the remedial action work. Depending 
on the final cleanup plan for the site, the cleanup could take 
several years to complete.
    I have staff with me today who work in the state Superfund 
program and have provided me information on the CTS site for my 
remarks. We will be happy to provide any answers to questions 
you have regarding state activity at the site.
    Thank you, Congressman.
    Chairman Shuler. Thank you, Mr. Matthews.
    [The statement of Mr. Matthews is included in the appendix 
at 29.]
    Our next witness is Neal Hanks, President of Beverly-Hanks 
& Associates, Realtors in Asheville.
    Mr. Hanks, you will have five minutes for your testimony.

STATEMENT OF NEAL HANKS, PRESIDENT, BEVERLY-HANKS & ASSOCIATES, 
              REALTORS, ASHEVILLE, NORTH CAROLINA

    Mr. Hanks. Thank you, Congressman Shuler.
    I am Neal Hanks, I am a resident of Buncombe County and 
President of Beverly-Hanks & Associates, Realtors, a real 
estate brokerage firm practicing real estate in Buncombe, 
Henderson and Haywood Counties in North Carolina. I have been 
in the real estate business since 1987 and served in my present 
role since 1999. I am appreciative of the opportunity to 
address the Committee regarding the impact on small business, 
specifically the real estate sector, of the industrial 
contamination on the site formerly owned by CTS Corporation, 
located on Mills Gap Road in Buncombe County.
    It is a well-documented fact that the former CTS site 
contains numerous toxic chemicals and is one of approximately 
1500 Superfund sites in the state of North Carolina. Recent 
off-site investigations have determined the presence of these 
chemicals in areas of the surrounding community as well, which 
many believe to have migrated from the former CTS site.
    As realtors, we have a professional obligation to disclose 
to clients the presence of material facts related to the 
purchase of real estate. The interpretation of facts deemed 
material is often subjective, but a common interpretation of 
material facts would be those factors which influence the 
decision of a potential purchaser to purchase real estate. 
Given this interpretation, it may seem obvious that potential 
purchasers of property in the surrounding vicinity of the 
former CTS site should be notified of the contamination of the 
site and the possible migration of contaminants to other 
property. The challenge for those of us in the real estate 
profession is determining what parcels of property in the 
vicinity of the CTS site would require such a disclosure. Do we 
discuss the CTS site with only those prospective purchasers 
interested in a property adjoining the CTS site? Those within a 
one mile radius? A five mile radius? A 10 mile radius? Those 
properties upstream or downstream from the site? It is pretty 
difficult for those of us in the profession to determine where 
do we draw a circle around the CTS site to determine those 
properties that might be potentially impacted.
    As a professional realtor, how do we determine which 
properties in our community might be impacted by contamination 
of the CTS site. As realtors, we have responsibility to protect 
the interests of our clients, both buyers and sellers. The 
presence of industrial contamination in a community creates 
significant hardship on both buyers and sellers of real estate 
in analyzing what impact, if any, there may be upon a specific 
property located in the community. This situation creates a 
very untenable situation for realtors until such time as the 
property in question is appropriately cleaned up. The 
uncertainty of the extent of contamination, the possible 
migration of contamination to other properties, and the 
timetable for cleanup creates unnecessary hardship upon the 
property owners in the community, the buying public and the 
real estate community trying to serve the needs of both.
    An expedited cleanup of the site is in the best interest of 
our community and its tax paying citizens and it is my hope 
that the Committee can assist our community in this effort.
    Chairman Shuler. Thank you, Mr. Hanks. Thank you for your 
testimony.
    [The statement of Mr. Hanks is included in the appendix at 
32.]
    Our next witness is Tate MacQueen, member of the CTS 
Citizens Monitoring Council. This group consists of seven 
members appointed by the Buncombe County Board of Commissioners 
to inform the Board of the cleanup efforts at the CTS site.
    Mr. MacQueen, you will be recognized for five minutes.

  STATEMENT OF PETER ``TATE'' MACQUEEN, MEMBER, CTS COMMUNITY 
                       MONITORING COUNCIL

    Mr. MacQueen. Thank you, Congressman. I appreciate the time 
that you are taking and your staff, Brian Fitzpatrick and Erin 
Doty in particular, as well as the Senators Byrd and Dole and 
their staff, John Mitchell and Graham Field.
    I am a resident living within one mile of the former CTS 
plant and I am very concerned over the toxic waste exposure to 
my community and family. In January 2008, I became involved in 
the Community Monitoring Group investigating and studying the 
contamination and the role of CTS Corporation, Mills Gap Road 
Associates, Biltmore Group and the various government agencies. 
For almost a year, we have spent numerous hours compiling a 
definitive history of the CTS Corporation, the actions of 
local, state and federal agencies. What we have discovered has 
been alarming and discouraging. This contaminated hazardous 
waste site could not have been managed more poorly.
    The property owners adjacent to the plant were exposed 
unnecessarily for eight years to highly toxic substances, which 
include trichloroethylene, an industrial solvent, and vinyl 
chloride, which is rated as the fourth most dangerous chemical, 
according to the CDC, for human exposure. We believe, based on 
the records that we have collected as part of the Community 
Monitoring Group, that the Southside Village development was 
built illegally and that the responsible parties may have 
committed fraud in getting approval for that development.
    My experience in interacting with the community and meeting 
citizens who have lost family members to cancer while living in 
close proximity to the plant has been disheartening. There is 
one resident who has lost eight aunts and uncles, including his 
father, to cancer. All lived within a mile and a half of the 
CTS plant, they all drank well water and spring water.
    This crisis has plagued our area for more than two decades. 
We depend on our government and its agencies to provide for the 
safety and wellbeing of our community. Our home values have 
suffered, which pales in comparison to the health issues many 
are struggling with and continue to face. We need action to 
rectify this matter so that our health is taken care of as well 
as being able to promote a strong area for smart growth, both 
commercially and residentially. And we would like to submit for 
the record that history that we have compiled and also at some 
point would like to address some of the findings on the site 
with regard to ``no further action'' status.
    Thank you for your time.
    [The statement of Mr. MacQueen is included in the appendix 
at 36.]
    Chairman Shuler. Thank you, Mr. MacQueen.
    At this time, we will be opening the hearing up for 
questions. Typically we have five minutes per member. I am the 
only member here, and that is typical when a member actually 
has an opportunity to hold a hearing in a district. It is 
pretty difficult, most of the members of Congress are with 
their constituents, and rightfully so. That is where they 
should be, especially during the difficult times that we are 
facing in our country and our economy and trying to get back in 
a much better alignment with the world. We have a lot of work 
ahead of us.
    But in saying that, we certainly have a lot of work to do 
in our district here. One of the most important tasks that we 
have is to make sure that our families and the children who are 
being raised in these communities have a great quality of life. 
Part of that quality of life requires that we have clean air to 
breathe and water to drink.
    RFor Mr. Matthews or Mr. Hill, either of you certainly have 
the opportunity to respond. Is there any possibility - and I am 
using the word possibility here - is there any possibility that 
any of these contaminants has adversely affected a person's 
life who lives in this community?
    Mr. Matthews. Mr. Chairman, I can only answer from the 
standpoint of information that has been provided to us, and I 
think to the community as well, to this point, from a study 
that was done by the Department of Health & Human Services, 
which is again a separate state agency, but a state agency in 
North Carolina, the Division of Public Health.
    A cancer cluster investigation was performed by them with 
limited data within a one mile radius. They were specifically 
looking at cancer and what they had reported to us was that the 
investigation did not find elevated numbers of types of cancers 
that could be possibly associated with chemicals related to the 
CTS site. Now they also have qualified that in that they are 
doing a more comprehensive study and have been involved with a 
more comprehensive study and it is being funded by the Agency 
for Toxic Substances and Disease Registry.
    They told us just recently that the report should be 
completed and submitted to ATSDR in February 2009. That is all 
the information that I have concerning the work of DHHS.
    Chairman Shuler. Mr. Hill, does EPA have any comments?
    Mr. Hill. I do not have any further information. I do have 
the reference that Dexter was just making regarding North 
Carolina Department of Public Health's statement, which 
basically says they have not identified a cancer cluster, but 
follow-on work will be conducted.
    So that is all the information that I have at this time.
    Chairman Shuler. Thank you.
    Mr. Matthews, do you have the status of the first phase of 
the groundwater testing results that was underway at the CTS 
site?
    Mr. Matthews. Yes, sir, the results came in late last week. 
The staff has been reviewing the analysis from the first set of 
data. There were, if I remember right, six locations where 
wells were installed and approximately 10 wells, both shallow 
and to bedrock. That information is currently available, it is 
available to the public as well. That will give us information 
for the next phase where we will have deep wells installed, to 
try to get an understanding of the subsurface, any fractures 
where contaminants might move. There will also be off-site 
wells eventually that will be installed and may be done 
concurrently with the on-site additional wells that would be 
installed.
    The levels that were found--one well basically up gradient 
from the site will be used as a background well. There were no 
contaminants found in that particular well, so it will serve as 
a background well. Where the source site is and previously 
where EPA's investigation was, they found very high levels of 
contaminants, trichloroethylene. Actually, the levels that we 
found seem to have come down in that particular area, which is 
kind of behind the building. Moving over towards the Rice's 
property, the contaminants in that area where those wells were 
placed was high, which would lead us off-site again with the 
investigation. Also going toward Mills Gap Road, again there 
were wells placed there and contaminants were found there as 
well that were relatively high. I don't have the specific 
levels--my staff do--with me, but generally that was what was 
found at the site.
    But we do want a thorough understanding of the geology of 
the site and certainly going into bedrock and seeing what type 
of fractures we are dealing with will be paramount in 
understanding where contaminants have moved or will move and 
direct our investigation going forward.
    Chairman Shuler. Obviously there is cost associated with 
drilling these wells. When you go off site, will you be able to 
utilize some of the wells owned by residents, assuming they 
would like to volunteer? The federal government wastes more 
money than any group I have ever known. So is there an 
opportunity for the residents to play an important and vital 
role, obviously saving the federal government money? I mean the 
government could utilize that money elsewhere. I have drilled a 
couple of wells in my day and they can cost five, ten, or 
fifteen thousand dollars, depending upon the depth of the well. 
Are there opportunities for people in the community to 
volunteer their wells?
    Mr. Matthews. The drinking water supply wells that exist, 
under a plan that is currently being or has been developed by 
EPA, will continue to be monitored. So they actually will be a 
part of making sure that everyone has a clean water supply. So 
those wells that are out there will be part of a monitoring 
plan going forward anyway. But additional monitoring wells will 
need to be installed at various depths to determine again the 
extent of contamination and the migration of contaminants off 
site. So my answer would be a combination.
    Chairman Shuler. Mr. Hill, testing completed in 1991 tested 
only one drinking well and that was one mile away, up hill from 
the CTS site. Why didn't they test areas closer to the site 
where the contamination was found actually in the groundwater?
    Mr. Hill. That is a good question, Congressman. I reviewed 
that report from our contractor, and actually I toured the site 
this morning. I do not have an answer for why there was not a 
much further in-depth investigation, other than the fact that 
they were concerned with source contamination and this was 
going to be a removal action, a short-term action to basically 
minimize our threat to surface water, and not looking to a 
longer term type of investigation. The removal program just 
does not perform that type of a characterization effort. I 
think the effort that you are talking about is certainly what 
is going on right now under the state's leadership.
    But as far as why there were not more samples taken, I do 
not have an answer and the record is not very clear on why they 
did not. My assumption, based on what I saw this morning down 
gradient from the site,is that if I had been doing the 
investigation, I would have gone a bit further.
    Chairman Shuler. Thank you, sir.
    For the record, Mr. MacQueen, does the Rice family now have 
good quality drinking water?
    Mr. MacQueen. They were placed on municipal water in 1999 
following tests that yielded results of 21,000 parts per 
billion of TCE in their spring well, which is their water 
source. The maximum contaminant level for the state of North 
Carolina is three parts per billion, the maximum contamination 
level for the EPA is five parts per billion. The call that was 
made in 1990 by Dave Ogren is what triggered the action on both 
agencies' parts, the EPA and NC DENR. And the report that was 
provided from NUS, which was contracted to do that well 
sampling, which was again, 4226 feet away from the site, what 
they said was the highest concentrations of these metals were 
found in CASB-03, which was collected in an old lagoon pond 
area. This source was off-site from the nine acre site. It was 
actually in what is now Southside Village. And they said that 
high levels of trichloroethylene, vinyl chloride, PAHs and 
several unidentified organic compounds were also found. These 
compounds were found in CASW-02, which was collected at the 
intersection of two streams on the northwest portion of the 
facility, once again outside the fenced-in area. The surface 
water pathway is of concern because of its use for fishing, 
boating and swimming and high concentrations of contaminants 
were found in the sediment and surface samples. This report 
also said that the groundwater sample from a private well 
contained high levels of iron, but was not attributed to the 
plant operations. Again, it was 4226 feet away. The groundwater 
pathway is of concern, however, because there are approximately 
397 wells within three miles of the facility. The air pathway 
is of concern because 3887 people live within one mile of the 
facility and high concentrations of metals and organic 
compounds were found in the surface soil samples. This was in 
1991.
    So this was originally done as a result of Dave Ogren's 
phone call. Unfortunately, because the decision was made by NUS 
to go so far away, the Rice property, which should have been 
tested first since it was closer than 350 feet, they were 
exposed to 21,000 parts per billion of TCE until 1999. They are 
now on municipal water.
    Chairman Shuler. are there any health concerns in the Rice 
family?
    Mr. MacQueen. The health concern certainly would be what 
happens when trichloroethylene anaerobically breaks down and 
becomes vinyl chloride. And again, CDC rates that as the fourth 
most dangerous chemical or compound. And, you know, that, 
similar to radon, can penetrate clay foundations, dirt 
foundations, which is what Mr. Terry Rice has at his home. And 
so fortunately, EPA has done a follow-up suma canister test for 
the air quality. There have been two done I believe in the last 
year and a half. So the main concern would now be vapor 
intrusion for the Rice family.
    Chairman Shuler. Gentlemen, I think the most important 
thing is that we look back at what could have happened or 
should have happened. It is very, very important that we do not 
make the same mistakes that were made in 1991, that we can 
proceed forward and try to investigate this issue to the 
fullest extent. And I know and understand the impact of budget 
constraints.
    If you look on the 1500 contaminated sites in North 
Carolina, where does the CTS site rank, judging from the 
information you presently have? I think that is very important 
to understand. Heaven forbid, the contamination is 10 times 
worse in the next results that we get back from the testing; 
but how are we going to be able to put this on a fast track so 
that we can get it cleaned up, and to what levels of 
contamination are we going to have see before we move to the 
top priority? Are we months or weeks from starting process of 
decontamination?
    Mr. Hill. Well, Congressman, first let me back up and just 
addressed one thing that you mentioned about funding, and I 
agree with you, there is not enough to go around for everybody. 
It is hard for me to hang the decisions that have been made on 
this site on funding.
    I think what we have to look at are authorities, distinct 
authorities of individual programs who came in and actually 
performed their responsibilities according to their 
authorities. And then handing off that part of the program to 
the other program and then looking at the process of who does 
what once one authority decides to vacate, if you will.
    I think what we have here is a site evaluation, a decision, 
a re-evaluation, a program that was working under limited 
authority that didn't necessarily go into a full scale type of 
an investigation. So again, I do not think it is funding, I 
just want to be clear on that issue. Clearly, process-wise, we 
could have done a much better job; communications-wise, we 
could have done a much better job.
    Chairman Shuler. So what is the relationship between the 
EPA and DENR? What is your relationship? How does each one of 
you feel about this relationship? I am not here to cast stones 
or lay blame on either of you, but do you have a working 
relationship? Do you have a relationship in which the 
information is transparent to one another's agency so that you 
are able to benefit the community?
    Mr. Hill. Yes.
    Mr. Matthews. Part of really what makes the relationship 
work, when I mentioned the Superfund within the Division of 
Waste Management, I mentioned that there was both federal and 
state involvement. EPA provides funding to the states, to North 
Carolina, for staff that interact directly with them and have 
been interacting directly with them throughout this process.
    Now once the removal action is complete, normally if the 
site is not going to rank on the NPL, then it shifts over to 
state authority. In this particular case, what we are doing, we 
are pursuing both now. We are moving forward with state 
authority to enter into an agreement with CTS, who by the way 
is responsible for paying for the investigation I talked about 
a few minutes ago, but we are pursuing them to clean up the 
site now as a priority site while we are still working with EPA 
on the possibility of ranking the site. So both are moving 
forward now.
    Chairman Shuler. So when do you expect another ranking? 
Because if we are at midway, if we are at 750 in our ranking 
out of the 1500, how long would it take to actually clean the 
site up?
    Mr. Matthews. When I say ranking--actually I think Mr. Hill 
may need to respond--but when I say ranking, I am talking about 
the federal ranking for NPL. We have already made the site a 
priority site under state authority and will continue to pursue 
that while the ranking package is being looked at by EPA.
    Chairman Shuler. Very good.
    Mr. Hill. And the 1500 number is a national number, 
Congressman.
    Chairman Shuler. Yes.
    Mr. Hill. Actually, in North Carolina, we only have 32 
National Priorities List sites, 212 in the region. So just to 
bring that back to an appropriate perspective as well, there 
are 32 here in North Carolina.
    As far as the ranking and the work that we have done on 
this site, we have attempted to rank this site at least on 
three different occasions. As we look at the mathematical 
method to rank the site, during the early phases, it lacked 
targets in certain areas even though we have the high 
concentrations in the spring that are emanating from the source 
at the facility, which is why we have an ongoing removal action 
underway right now at the facility. Again, it was to address 
that immediate threat and release to that surface water body.
    I think as you investigate sites and as information becomes 
available, you find out additional information. And the one 
thing that was clearly lacking here that I think everyone has 
basically already acknowledged, is that this site lacks a 
comprehensive groundwater study to really understand the hydro-
geologic conditions of what is going on at the site.
    The initial phases of the response, I think, were 
appropriate to deal with the surface water impact. But it did 
lack that long-term component. Now, we are at that point and I 
am happy to hear you ask about where do we go from here from 
the standpoint of getting the site on track and making sure 
that citizens of Asheville are protected.
    I think the state has done an admirable job of bringing CTS 
to the table and moving forward in developing a cleanup plan 
and strategy, or at least a characterization plan and strategy. 
They are not yet at the cleanup phase. But that is fully 
underway. The removal action that we continue to operate at the 
site, and the treatability study that is proposed right now 
will continue to minimize contaminants in surface water. So we 
are tackling this from all angles, and right now, we have our 
removal authority fully engaged, the state is fully engaged as 
well as our remedial program.
    As far as where does the site rank? 28.5 is the trigger for 
the National Priorities List and, as I said earlier, even if it 
scores 28.5, a discussion needs to be held as to whether or not 
that is the appropriate place to place this site from a cleanup 
perspective. Is it the NPL? Is it under our Superfund 
alternatives program? Or is it in the appropriate place as a 
state lead cleanup? The effectiveness of either of those 
programs are seamless. I mean, the cleanup will be of NPL 
caliber. So whether or not it goes to the NPL or not isa 
discussion that I know we will have at some point, but that is 
no guarantee that you get a better cleanup than a cleanup that 
is conducted by the state.
    Chairman Shuler. Would you talk about the relationship 
between the CTS Corporation and the EPA?
    Mr. Hill. Well, it is my understanding that CTS is 
performing according to requirements of the Administrative 
Order. They have agreed to the ozination study, they have 
agreed to the vapor intrusion study that was conducted where we 
found levels that were well within our risk range and not any 
immediate health hazard associated with that study.
    So they are cooperating. It also sends a positive signal to 
me that they are cooperating, that they have now entered into 
an agreement with the state to do the further groundwater 
characterization that is needed.
    Chairman Shuler. Do you know of any past history that CTS 
has had on other sites, that we can look at the history of how 
they performed in other locations and maybe get an idea of how 
they may perform on this one?
    Mr. Hill. I am aware of one other site, I think it is in 
Region 9, where they have taken some activity, mainly that 
included an excavation and cleanup. That site was ranked and 
was listed on the National Priorities List and they did proceed 
under an enforcement lead to clean that site up. So we are 
talking about excavation, where it has not happened in this 
community, and I would not recommend it in this community until 
we understand the hydro-geologic conditions of that site.
    Chairman Shuler. Speak about the relationship with 
contaminated wells that have been tested in the past. Some have 
shown high levels of contaminants and then the next time they 
are tested the others may not have as high levels as they once 
did. And I think it goes back to what Mr. Hanks was talking 
about with the movement of contaminants, it looks like the 
ground water underneath is moving. How are we able to 
determine, you know, how far a scope should we be managing on 
this site? I mean is it, like Mr. Hanks said, is it one mile, 
five miles, ten miles? Because we are seeing levels elevated at 
one point and then fall off and then elevate again. Is that 
based upon the drought that we have or is it based upon--you 
know, give me an idea of what I should expect as a lay person 
looking at it. You know, I do not know hydrologically what is 
happening under the ground to be able to determine these 
different levels at different times.
    Mr. Hill. I think you bring up an excellent point. A number 
of things contribute to that. Drought is one, whether or not 
elevations in groundwater are up or down. Clearly there is 
fractured bedrock here, which we do not really understand where 
the fractures are and how groundwater is flowing. And hopefully 
the study that the state is leading and conducting will help us 
with that. There are a lot of unknowns about what is happening.
    Also, I will say to you that this investigation could 
potentially turn up other sources. That is the thing that no 
one has talked about in this community, but clearly as you look 
at the landscape, the site kind of sits in a bowl. And one of 
the subdivisions that has been impacted is up gradient to a 
certain degree. It is really difficult to understand that 
without the associated study, in order to get a good feel for 
how groundwater is flowing and how those fractures are really 
impacting groundwater. Whether or not there is another source 
or a separate source, we are not certain, but we may find one 
as a result of this investigation.
    Chairman Shuler. Very good.
    Mr. Hanks, if this site is cleaned up in a relatively quick 
manner, how will it impact small businesses, I mean based on 
relocation of businesses or relocation of homes or selling of 
homes in those particular areas?
    Mr. Hanks. Well, I think it would obviously help 
significantly if the site is cleaned up, from a number of 
perspectives. I mean, you have got--obviously that property is 
sitting empty and will be sitting empty until the site is 
cleaned up and it is an appropriate site for business, for 
manufacturing. And it is a great site and we are lacking sites 
in Buncombe County. So simply from the aspect of that site 
alone, it would make a significant impact, but from an impact 
upon residential properties in that immediate surrounding area, 
I think the uncertainty of impact on the surrounding properties 
is the major concern. And a cleanup would remove uncertainty of 
the source or potential source of contaminants. So I think it 
would be a very positive impact on the community, both for 
small businesses and for the residents in the vicinity of the 
former CTS site.
    Chairman Shuler. Mr. MacQueen, are you aware of any other 
potential sources, contamination sources?
    Mr. MacQueen. We have heard different stories of people 
using degreasing agents for their own personal use, including 
stripping golf club grips and automobile degreasing. It has 
been established under the leadership of Dr. James Webster back 
in 2002, on April 4, when he proposed an emergency action order 
which was signed off by Mr. Green of EPA, that what he found 
was that there was an imminent threat of groundwater 
contamination under the plant based on studies done under Greg 
Powell from REACT, and the drawing or map that was provided by 
Map Tech clearly showed that there is a bedrock foundation that 
forms a bowl if you look only at the east-west cross section. 
Unfortunately, if you look at the north-south cross section, 
that bowl then becomes a trough where it is feeding south to 
north. And coincidentally, that is the direction of Printers 
Cove which ultimately leads to the Oaks Subdivision.
    I have not heard of any other sources of contamination. All 
I can say is that it was accepted by Dr. Webster in 2002, it 
was signed off by Mr. Green, that this rose to the level of--to 
the serious nature that they thought that it should be 
immediately remediated and mitigated, because of the numbers of 
830,000 parts per billion directly under the slab flooring of 
the plant. That order still stands and in fact, we have had 
some great dialogue with the agencies about their interest in 
perhaps pursuing that action order.
    Chairman Shuler. Very good.
    Mr. Matthews, you mentioned earlier other potential 
responsible parties like Mills Gap Road Associates. To what 
extent have you had contact with them?
    Mr. Matthews. We have not. We have talked to CTS about 
entering into the agreement. We have not done a full 
potentially responsible party search. That is an option, as I 
said. There is a three million dollar cap, which I know has 
been discussed at length, and I wanted to make sure that there 
was an understanding that other responsible parties would have 
that cap as well, it would not be $3 million just for the site 
and the $3 million would only count towards remediation, not 
the assessment part. So the assessment part would have to be 
funded and then the three million cap would come into play so 
far as CTS is concerned.
    Our attorneys are still in conversation--
    Chairman Shuler. Before you go on, if you would, explain 
that cap, why that cap of three million is in place? Why is the 
magic number three million? Of course, I know, but there may be 
someone here that may not understand why there is a cap of 
three million dollars.
    Mr. Matthews. I will speculate why the three million dollar 
cap is there. The legislation that was passed was passed before 
I was in this position and I wasn't involved with that 
particular bill. I assume that the $3 million was put in place 
to try to bring more parties to the table to get a cleanup 
faster. I would guess that is why the $3 million was put in 
place.
    Chairman Shuler. Do you think it was also there to be able 
to incentivize businesses to come to an area, that they know 
that their liability may only be three million dollars?
    Mr. Matthews. I am sorry?
    Chairman Shuler. Do you think there would be some incentive 
for potential businesses to actually come if they may only have 
a liability of cleanup of three million, based on the 
contaminants that may knowingly be put on a piece of property?
    Mr. Matthews. I would be speculating even further to say 
whether or not that $3 million has any kind of incentive for 
somebody to come in and certainly any kind of incentive to 
pollute. I would certainly hope that it would not be that. On 
top of that, there are also penalties that can be assessed for 
violation of groundwater contamination. So it is not that you 
could just come in and be able to pollute. But I really believe 
that the three million dollar cap was put there as an incentive 
to bring parties to the table for a cleanup at the site. But 
again, that three million only applies to each responsible 
party. So we could have well more than three million that 
ultimately could be spent on the site.
    I did want to say we have not finalized an agreement with 
CTS. Our attorneys are meeting with their attorneys I believe 
the 11th of this month and hopefully that will move things 
forward. But as I said earlier in my comments, CTS has moved 
forward with the assessment outside of the agreement.
    Chairman Shuler. Very good.
    Let us talk about extractors, Mr. Hill. Explain to us about 
the extractor that you have on site right now, about what its 
purpose is, what you expect out of it.
    Mr. Hill. The soil vapor extraction system--
    Chairman Shuler. Yes, sir.
    Mr. Hill. --was designed to address the unsaturated zone in 
soil. That is the soil that is just above the groundwater 
table. That system is now operating, and as I said, it has 
pulled 3900 pounds of TCE off of the saturated zone.
    I know there was a lot of discussion about the building 
coming down and excavation. It was designed basically to do 
exactly what it is doing. It is performing perfectly, we think 
it was an excellent design. We think that remedy is performing 
as built.
    Chairman Shuler. Out of the 3900 pounds, what percentage of 
the overall contamination--how many pounds are there? Did you 
extract .1 percent or 15 percent?
    Mr. Hill. Well, now you want me to speculate.
    [Laughter.]
    Mr. Hill. To be perfectly honest with you, I have no idea. 
I do not think anyone does at this point. There was a boring 
through the floor of the facility that basically identified 
that there were elevated levels of TCE there. And this was the 
short-term action to address the impacts to the surface water 
body and streams. So we think is still working. Is there 
additional work that needs to be done at the site? I would say 
that there is.
    Chairman Shuler. Mr. Matthews, when can an agreement 
between CTS and DENR be expected?
    Mr. Matthews. I would hope that the meeting that I 
mentioned a few minutes ago that is supposed to occur the 11th 
of this month will get us very close, if not to the agreement. 
But the agreement has to be in place prior to the remediation 
plan being approved.
    Chairman Shuler. Before we close here, I think it is very 
important that we all realize that we can continue to look back 
and we know that--I think we can all allude to the mistakes 
that have been made. I think it is of the utmost importance 
that this information is readily available to the public, which 
I know it is, and I would like to be able to put that 
information on our website so that the members of the community 
can go to our website to be able to find the updates. It would 
obviously take a lot of pressure off you and your staff if we 
can get the information on our website.
    It is also very important that we actually now work 
together. And I know there is probably some animosity between 
the community and the two different agencies. It is so 
important that we now say what can we do to help, how can we 
help this process, in order to move it forward. And I know Mr. 
MacQueen has done a really great job and the council has done a 
great job of sparking the interest. I mean, to be quite frank, 
if it was not for the council, we would not be here today. I 
mean the times that Mr. MacQueen actually came up to our 
office, I think our staff would agree that it was probably the 
longest meeting that we have had in our two years in office. 
But we have to work with one another.
    So, before we close, if you could, just give us a time line 
of what we should expect in the next month, two months or three 
months from the testing, the relationships, the contracts 
between CTS and I know you have obviously answered that. But 
give us an overall expectation as a community, what should we 
expect from the two different agencies and how we can proceed 
and move forward.
    Let me just give you one example. We met back in September 
and I think that the first testing was supposed to take place 
on September 8. And, for an example, it was supposed to take 
three weeks for us to get the information back. You tell me we 
just got the information a few days ago. That is not the type 
progress that we need. That is not what helps make a community 
happy. So when we give these time lines, let us make sure that 
we can give time lines which we can actually meet. The worst 
thing that can happen is a time line of one month that turns 
into six months. And the federal government is great at that, 
they know how to do that very, very well. And the state 
government does as well. But what we have got to do is we have 
to be completely honest with our community and our citizens--
    [Applause.]
    Chairman Shuler. --to ensure that we actually have this 
information.
    So give us an overview. But I want the community to 
realize, now we have got to work together. Now we have to work 
together and to make sure that we help support our agencies. I 
mean if the council is having to do this work on their own, it 
is very expensive and so we need to work together as one 
community, as a group, to be able to give the assistance that 
the agencies need and give them an opportunity to discover the 
issues and find out more of the information, more of the 
contaminants, what is to be done, what are the procedures to be 
followed up with and how can they work together.
    If we shout and we drag down the process, it is going to 
slow the entire system down. They do not have all the staff to 
answer these questions every single day. But if they will give 
us a time line, we can put it on our website and then we can 
get--obviously the relationship that we have with the council, 
we can get the information back to them. Then we can proceed 
forward and then we can find out where we rank. Then hopefully 
we can find the money somewhere in our budget to make sure that 
EPA and DENR have the money to be able to assist in the cleanup 
of the site. And most importantly, the burden should not fall 
on the taxpayers. That is what is so important, so the CTS 
Corporation has to step up.
    [Applause.]
    Chairman Shuler. They have to step up to the plate, because 
if all of our tax dollars are going in it, the next time this 
happens, we are going to be setting a precedent. And I know 
that is certainly not what the agencies want. They want to make 
sure that CTS is held responsible. That is what we as citizens 
and taxpayers want, as well.
    So before we close, if you could, just give us a time line, 
what we should expect as a community. Mr. Hill, you first.
    Mr. Hill. All right. As far as CTS stepping up, it has 
always been EPA and the state's position that the responsible 
party pays. So we have a serious position on holding CTS' feet 
to the fire from the standpoint of funding this cleanup.
    [Applause.]
    Mr. Hill. As far as the actions that EPA will be 
conducting, the ozination study is in the developmental stages 
right now, there is a treatability study that will be 
associated with that. We expect full deployment by the spring 
of next year. So that is underway. There is also an attribution 
study underway right now that EPA has undertaken in an effort 
to continue to try to accomplish a 28.5 score or to have the 
site listed to the National Priorities List.
    As I said, I think we need to have a discussion about that 
with the real estate community. Number one, I heard their 
concerns about contamination in this area and how it is 
impacting the economic values of homes in this area. And I 
think we need to talk about what an NPL designation means for 
this community before we go down that path.
    So those are the activities that we will continue, as well 
as quarterly monitoring of private wells in this community. So 
the ozination study is underway, an attribution study is 
underway and quarterly monitoring of private wells will be 
ongoing.
    Chairman Shuler. Very good, thank you, Mr. Hill.
    Mr. Matthews.
    Mr. Matthews. As I mentioned, we are moving forward with 
negotiations with CTS to enter into an agreement. We hope 
certainly to have that moved forward prior to the end of the 
year. There is a public comment period that is involved with 
the agreement before it would be finalized. So you are looking 
sometime after certainly the first of the year before it could 
be finalized. But we do want to get public comment on that as 
well.
    The second phase of testing on the site that I mentioned 
earlier that would give us much better indications of the 
subsurface so far as bedrock and fractures at the site, now 
that we have the analysis from the first phase, that plan will 
move forward. However, there also may be some off-site testing 
as well. Staff are currently working with CTS's consultants to 
develop that. So once that is developed, a time line will be 
involved with that and we will certainly share that with you so 
you would be able to post that on your website as well.
    We also will be assisting EPA in the sampling that Mr. Hill 
mentioned, the plan that has been developed to sample private 
wells around the site, that will begin next year and I believe 
the plan calls for quarterly sampling.
    Chairman Shuler. Very good.
    Mr. Hanks, is there anything else that would help you in 
the business community, or is this information adequate for you 
to make some decisions going forward? And I know there is a 
disclosure statement that you give, but I certainly think it 
would be helpful to be able to identify that mandatory distance 
away from the site.
    Mr. Hanks. Well, I think your suggestion of placing the 
information on your website gives us a central point of 
information for which we can direct citizens to do further 
investigation, and for our realtors in the community to do 
further investigation. So I think that central source of 
information would be very helpful to all of us.
    You know, that is critical to us in the real estate 
industry, is having proper information to share with the public 
about the site. It has been very difficult to obtain and to 
keep up with. So I think your suggestion is a good one if it 
will give us a central point of information.
    Chairman Shuler. Mr. MacQueen, is there anything you would 
like to add, based upon the community's response?
    Mr. MacQueen. Yes, Mr. Congressman.
    As a history teacher currently at Owen High School, you 
know, that is what my job is, is to look back. And part of 
teaching history is to identify and then rectify problems to 
prevent them from occurring in the future. So I hope that it 
comes across in the spirit that I am giving it and that is that 
this is not about vilifying, this is not about casting 
aspersions, this is simply about finding common ground and an 
appropriate solution.
    I am very grateful to Mr. Hill's work with Camp Lejeune and 
our soldiers and the groundwater work that you have been doing 
for the TCE issue down there. I know how hard the folks from 
DENR have been working.
    I do know that--since everybody had an opportunity to 
speculate, I would just love to be able to speculate about 
Mills Gap Road Associates and their lack of cooperation. On 
August 13, 1997, they appeared in front of the Board of 
Adjustment with Richard Green from Biltmore Group, they said 
that they had achieved ``no further action'' status from the 
State of North Carolina, they were not asked to produce a 
document. It is our understanding they have never reached a 
``no further action'' status for that site. Because of that 
interaction and lack of follow-up, we had a development under 
construction nine days later, that 44 acres came off of the 
original site.
    And one other point is, in terms of going forward, part of 
EPA's decision to determine it a low priority was, one, based 
off of the NUS study that sampled one well 4226 feet away, and 
previously, prior to that was in 1985 when the EPA submitted a 
hazardous incident worksheet for CTS Corporation to fill out 
from EPA; long-term employee, Norman Lewis, filled that out. 
There was no follow up on that. Mr. Lewis--his own mother lived 
across the street from the plant and it is on the record that 
he was stating that no one lived within 1500 yards of the 
plant--five football fields--and the Rices clearly lived 
within, you know, one football field.
    And so we have to look back. We are not doing it to try and 
not be on the same team. You know, when I make a mistake, I 
have students call things to my attention. I am grateful for 
it. And as a coach, I ask my players to be willing to make 
mistakes because that is how they become better players. But in 
this case, we are talking about life and death and economic 
impact and, you know, with Scott Socia from Foot Rx, he wants 
to recommend foot trails and he is not comfortable recommending 
that area for his clientele. I know that Pet Supplies Plus has 
seen a rise in companion animal cancers associated with where 
they live in proximity to that plant.
    We are here to work together. I had a good conversation 
with Mr. Doring beforehand, I look forward to interacting with 
him more. Mr. Hanks, my former employer, I would love to brief 
you with the information that we have and continue to work with 
the dialogue that you have facilitated. I know that you were 
saying me personally, but I am not comfortable with that 
pronoun, it was not me, it was a collection of individuals with 
Barry Durand and Dave Ogren and a number of other people that 
have worked tirelessly and have done a lot of the work for you. 
We want to work any time, you know, 24/7. And trust me, we have 
done 24/7, to get this cleaned up. But the NPL status, whether 
it rises to the criteria, the word that you used was caliber. 
You could not ask for a better word. One of the things that NPL 
caliber status would give us would be the ability to have 
independent data collected, to have a secondary source of data.
    [Applause.]
    Mr. MacQueen. So I just want it to be clear, this is not--
there is no acrimony, we are not--we just want to work 
together. So I appreciate the opportunity you have afforded us.
    Chairman Shuler. Well, I think that is clear. Hopefully 
this hearing will indicate that we have to work together. And I 
have to commend both of the agencies--the EPA and DENR--for 
their appearance here. Sometimes these can be very difficult 
hearings and you guys just better be thankful that the 
Chairwoman is not here. She is really good.
    [Laughter.]
    Chairman Shuler. You do not have to put that in the 
transcript, by the way.
    [Laughter.]
    Chairman Shuler. She is the best Chair in Congress.
    But I want to commend both staffs, everyone in my staff 
included, for their hard work on this. Let us work together and 
get the information out. Transparency and oversight are the 
key, especially when it comes to federal and state agencies.
    I know I recognized Charles Thomas for his hard work and 
dedication on this issue and I know that Representative Jane 
Whilden is also here and she will be working very diligently on 
the state level to make sure that we have this oversight and 
that we have the transparency for our community in order to 
provide a better quality of life. I mean we are very, very 
blessed to live in a community like we do. We do not want that 
cloud to be covering over a community that has been such a 
wonderful place to live and raise children, as many people have 
recognized. I mean there are a lot of people here that may not 
have grown up in Buncombe County or maybe even in this region. 
They moved here because of the quality of life. But the most 
important thing is they stay here because of our people. And I 
think together as a community, we are going to make this--let 
us make sure that our families have a better quality of life.
    And so to the agencies and to Mr. Hill and Mr. Matthews and 
Mr. Hanks and Mr. MacQueen, thank you for your testimony today.
    Let me see, I have one last piece of housekeeping to do. I 
ask unanimous consent that the record be held open for five 
days for members to submit their statements. We have DVD copies 
of a CTS presentation related to this issue which the Committee 
will keep in the hearing file for future reference.
    Hearing no objection, so ordered.
    This hearing is adjourned.
    [Applause.]
    [Whereupon, at 11:12 a.m., the Subcommittee was adjourned.]


                 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                               
    
                                 <all>

</pre></body></html>
